  State Nurse Aide Training:
Program Information And Data




                                           August 2002
                                       OEI-05-01-00031


                              Office of Inspector General
                     Office of Evaluation and Inspections
                                                Region V
                              SUMMARY

This report contains information about the State nurse aide training programs. Today more than

1.6 million elderly and disabled persons reside in nursing homes. The Federal Government and

the States regulate more than 17,000 nursing homes. These nursing homes must comply with

Federal and State standards to receive Medicare and Medicaid reimbursement for the care

they provide to residents enrolled in the Medicare and Medicaid programs. In Fiscal Year

2000, Medicare and Medicaid paid more than           $45 billion to nursing homes. 


Most of the daily care furnished to nursing home residents is rendered by the nearly 696,000

nurse aides employed by nursing homes. For many nursing home residents, the nurse aide may

be the only person with whom they have regular daily contact.


Before passage of the Omnibus Budget Reconciliation Act of 1987 (OBRA 87), only a handful

of States required training of nurse aides. Passage of OBRA 87 required each State to

establish State-approved nurse aide training programs and to establish minimum requirements

for nurse aide competency. This report provides information as to what the States have done

to implement the nurse aide training requirements specified in

OBRA 87. 


All of the information in this report was obtained from State program officials. We visited a

total of eight States to obtain information about their nurse aide training programs. The

remaining 42 States and the District of Columbia were asked to complete a mail survey. 

Overall, 48 States and the District of Columbia provided information about their nurse aide

training programs. Two States did not return our survey. We did not verify the data submitted

by State nurse aide training program representatives. Additional information about State nurse

aide training programs can be found in our report entitled, Nurse Aide Training (OEI-05-01-

00030).





                                           i
                               TABLE OF CONTENTS




                                                                                                                                         PAGE

SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FEATURES OF STATE NURSE AIDE TRAINING PROGRAMS . . . . . . . . . . . . . . . . . . . 4


          Application for State Approval . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          Curricula . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          Hours of Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          Practical/Clinical Exposure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Program Re-certification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Training Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          Instructors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          Exams and Certification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Nurse Aide Registries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          In-Service Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


TABLES: KEY ELEMENTS OF STATE PROGRAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


DIRECTORY, STATE NURSE AIDE TRAINING PROGRAM CONTACTS . . . . . . . . . . 24


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30





                                                                       ii
                          INTRODUCTION


PURPOSE

   To describe the State nurse aide training programs.



BACKGROUND

   Today more than 1.6 million elderly and disabled persons reside in nursing homes. The vast
   majority of these nursing homes comply with Federal and State standards to receive
   reimbursement for the care they provide to residents enrolled in the Medicare, Medicaid, and
   other government programs. The Federal Government and the States regulate more than
   17,000 nursing homes, and in Fiscal Year 2000, Medicare and Medicaid paid more than $45
   billion to nursing homes.

   Most of the daily care furnished to nursing home residents is rendered by the nearly 696,000
   nurse aides employed by nursing homes. Nurse aides assist nursing home residents in bathing,
   dressing, eating, toileting, and other tasks. Nurse aides also provide residents with
   psychological, social, and spiritual support. The actual scope of work a nurse aide performs
   varies from State to State and from nursing home to nursing home. For many nursing home
   residents, the nurse aide may be the only person with whom they have regular daily contact.

   Before passage of the Omnibus Budget Reconciliation Act of 1987 (OBRA 87), only a handful
   of States required training of nurse aides. Passage of OBRA 87 established the Nurse Aide
   Training and Competency Evaluation Program (NATCEP). This Federal law required each
   State to establish State-approved nurse aide training programs and established minimum
   requirements for nurse aide competency. Enactment of OBRA 87 required that all nurse aides
   employed in nursing homes take a State-approved nurse aide training course. Upon
   completion of training, all nurse aide trainees must pass a State exam within 120 days to
   become certified to work in a nursing home.

   Federal Training Requirements

   Federal regulations require that nurse aides have no less than 75 hours of training prior to
   receiving their certification. At least 16 hours of a training program must be supervised
   practical (clinical) training. Training must be performed by, or under the general




                                               1

   supervision of, a registered nurse who has a minimum of 2 years of nursing experience. At least
   1 year of the 2 years must be long-term care nursing experience. By law, training must include:

           <       Basic nursing skills,

           <       Personal care skills,

           <       Mental health and social service skills,

           <       Caring for cognitively-impaired residents,

           <       Basic restorative skills, and

           <       Residents’ rights.


   Upon completion of the training, a nurse aide trainee must pass a State exam to become
   certified to work in a nursing home. The State exam includes a written or oral component and
   a skills-demonstration component. Candidates for nurse aide certification must pass both
   components before a State can enter their name in the State registry of nurse aides who have
   successfully completed their training requirements. States also use their nurse aide registry to
   help nursing homes and other employers ensure that potential employees meet Federal and
   State requirements for employment, and that no adverse actions exist that would prohibit the
   hiring of a certain individual.



SCOPE AND METHODOLOGY

   This inspection provides information about the State Nurse Aide Training and Competency
   Evaluation Programs (NATCEPs).

   We visited the States of Florida, Louisiana, Minnesota, New York, and Washington to gather
   in-depth information about their nurse aide training programs. We selected these States based
   on their geographic location, nursing home population, and State budgets for nursing home
   care. Missouri, Ohio, and Wisconsin were also visited during the early stages of this study.
   During our visits to all of these States, we met with NATCEP program officials to discuss their
   nurse aide training programs. Our visits were conducted during May, June and July of 2001.

   In the remaining 42 States and the District of Columbia, we mailed a survey to the person
   responsible for the oversight of the State’s nurse aide training programs. We asked them to
   provide specific information about their State nurse aide training programs. The survey
   contained both open and closed-ended questions dealing primarily with how each State had
   implemented Federal requirements for nurse aide training.




                                               2

Overall, 48 States and the District of Columbia provided information about their nurse aide
training programs. Two State NATCEP directors did not respond to our survey. All
information in this report is based on the State responses. All information was self-reported
and was not independently verified.

Our review was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                            3

    FEATURES OF STATE NURSE AIDE
        TRAINING PROGRAMS
     Each State is responsible for ensuring that the nurse aide training programs offered in their State
     meet minimum Federal requirements. Federal law also prescribes specific areas that must be
     included in all State-approved nurse aide training programs. We asked States to report on
     their nurse aide training programs. All information was self-reported and was not independently
     verified.



Application for State Approval

     Nursing homes and other entities that wish to sponsor a nurse aide training program must obtain
     State approval. Nearly all of the States provide prospective sponsors of nurse aide training
     programs with an application and materials to guide them in developing a curriculum that will
     meet State approval. Ten States indicated that they charge nursing homes a fee for this service.


     All States report that they review each sponsors’ application and examine course materials to
     ensure that the sponsor’s nurse aide training program meets Federal and any existing State
     requirements. All State respondents report that their application process is designed to ensure
     that the training programs will be under the supervision of instructors who meet Federal
     requirements. The application and review process also helps the State determine whether the
     training program seeking State approval contains all of the skill requirements mandated by
     Federal and State law.

     Applications for State approval of a nurse aide training program are reviewed by the State
     nurse aide training and competency program director. In some States, this responsibility is
     shared or delegated to other staff. In some cases, another State agency or a subcontractor may
     be contracted to review and approve nurse aide training programs. In many States, the
     NATCEP director may have other duties and responsibilities besides the oversight of the nurse
     aide training programs. Moreover, the number of staff persons assigned to assist them may be
     limited.



Curricula

     The OBRA 87 requires that each State ensure that the nurse aide training programs they
     approve meet Federal requirements pertaining to basic nursing skills, personal care skills,
     restorative skills, mental health, and social service skills. Besides these basic patient care


                                                  4

     skills, State-approved training programs must also ensure that nurse aides know how to care
     for cognitively-impaired residents and are knowledgeable about residents’ rights.

     Responses to our survey reveal that about half the States have elected to establish a single
     statewide curriculum for nurse aide training. All of the nurse aide training programs approved
     by these States are required to include the State core curriculum. Seven States encourage
     sponsors of nurse aide training to use a State-approved core curriculum, but they do not
     mandate its use. The remaining States leave the development of nurse aide training curricula
     totally to the discretion of the sponsor. These States do not encourage the use of a core
     program nor do they endorse the use of any nurse aide training programs. Sponsors are free to
     develop their own nurse aide training programs, and the States appear to approve all programs
     that meet Federal and State criteria.

     Determining how many uniquely different nurse aide training curricula exist is difficult. Many
     sponsors of training programs purchase their course curriculum and training materials from
     vendors, others develop their own curriculum and course materials, and others adapt material
     from different programs.

     Nurse aide training programs not approved by the States also exist. In two States we visited,
     we were told that nurse aide training programs not approved by the State were being offered to
     persons interested in becoming a nurse aide. These non-approved programs are both facility-
     based (e.g., nursing home) and non-facility based. Seventeen States require that all persons
     taking the State nurse aide exam complete a State-approved nurse aide training program. The
     remaining States permit certain individuals, who have not graduated from a State-approved
     nurse aide training program, to take the State exam. The most common exception is made for
     nursing students and nurses.



Hours of Training
                                                           Number of Training Hours
     Federal law requires that State-approved nurse
         States reporting... Number     %
     aide training programs consist of at least 75
         Minimum of 75 hours     23      47
     hours of classroom and clinical instruction. Half

                                                                 > 75 to 100        13     26.5
     of the States report that their nurse aide training

     programs exceed the Federal requirement of 75
           Greater than 100      13     26.5
     hours. One out of every three States report

     that they require 100 or more hours of nurse

     aide instruction. State nurse aide training programs range from 75 hours, the minimum required

     by Federal law, up to 175 hours. Twenty-three States only require that the training programs

     they approve meet the Federal minimum requirement of 75 hours. At the discretion of the

     training sponsor, the actual amount of time a student spends in training can exceed the required

     minimum length.


                                                 5

Practical/Clinical Exposure

     All of the States that responded to our survey report that they require clinical exposure during

     nurse aide training. More than half report that they require more than the minimum 16 hours of

     supervised practical training required by OBRA 87. One-third of the States reported that they

     require more than 37 hours of supervised practical training. The actual number of clinical hours

     required by the States ranges from 16 hours, the Federal minimum, up to 100 hours. Four of

     the 49 States that responded to our survey reported that they do not specify precisely how

     many hours of a nurse aide’s training must be in supervised clinical practice. Other than

     prescribing the minimum number of hours of clinical experience, States have few, if any,

     requirements pertaining to practical training. 


     Federal law defines supervised practical training as                      Clinical Hours

     experience gained “. . . in a laboratory or other

                                                                  States reporting...   Number   %
     setting in which the trainee demonstrates knowledge

     while performing tasks on an individual under the
          Minimum of 16 hours      16     32.7
     direct supervision of a registered nurse or a licensed
       > 16 less than 37      6      12.2
     practical nurse.” Many nurse aide training

     programs provide practical or clinical exposure by
              37 or more          23     46.9

     arranging for their students to practice the skills they
       Not specified        4      8.2
     have learned in the classroom on nursing home

                                                                 At least one-half of     15     33.3
     residents. Other training programs use a laboratory
        training devoted to
     setting designed to simulate the nursing home
                   practical
     environment. 


     Federal regulations prohibit nurse aide trainees from

     actual clinical experience until they have had at least 16 hours of classroom training. Other than

     this Federal requirement, States do not prescribe at what point in the training students should be

     exposed to the actual job requirements. States also do not specify how clinical training should

     be conducted or when students should be exposed to actual clinical practice. 




Program Re-certification

     Federal law (OBRA 87) requires sponsors of State-approved nurse aide training programs to
     notify the State when they make substantive changes to their training program. The law also
     requires that the States must review programs that report changes to ensure that the training
     program remains in compliance with Federal requirements.




                                                   6

     All of the States in our survey reported that they               Program reviews
     periodically review and re-certify all of their
     approved nurse aide training programs. Most               States reporting      Number    %
                                                             program reviews are
     States require that training sponsors provide               conducted ...
     updated information about their nurse aide
     training programs at least every other year. One                yearly            10     16.3

     State reported that they review each new                    every 2 years         36     75.5
     program within a year of approval. Ten States
                                                                at other intervals     3      16.3
     require annual updates. A few States said that
     they re-certify nurse aide training programs every              when              7      8.2
                                                              problems/complaints
     3 to 4 years or “as time permits.”
                                                                     arise

     The program re-certification process requires
     that State-approved training programs provide
     updated information about their nurse aide training program. States review the updated
     information to ensure that sponsors have not made changes that would put the training program
     out of compliance with Federal or State requirements. Part of the review process is designed
     to help States ensure that an approved program continues to:

             <       have an approved supervisor that meets Federal and State requirements, and
             <       provide a curriculum that meets Federal and State training requirements.

     Several States said that they would deviate from their established program review and re-
     certification schedule if they receive complaints about a program, or if students from a particular
     program have unusually high failure rates on State exams. In addition, all States report that they
     periodically conduct onsite visits to nurse aide training sites. State health department employees
     conduct the vast majority of these onsite visits. In four States, these onsite visits are conducted
     by the State Department of Education. Two States have contracted with a private firm to visit
     the programs in their State.



Training Sites

     Based on State-reported information, we estimate that there are more than 12,500 State-
     approved nurse aide training programs in the United States. Approximately 60 percent of the
     State-approved training programs are facility-based and sponsored primarily by nursing homes.
     Most students who enroll in a facility-based program attend classes in a nursing home. Overall,
     the States have approved more than 7,500 facility-based nurse aide training programs.

     The remaining 5,000 nurse aide training programs are non facility-based. These



                                                 7

     programs are not sponsored by a nursing home and classes are usually not held in a nursing
     home. Non facility-based training programs are sponsored by not-for-profit and for-profit
     entities and can be found in local high schools, community colleges, and private schools. Some
     nurse aide training programs are affiliated with welfare-to-work programs. Some are
     supported by labor unions and others are sponsored by non-profit organizations such as the
     American Red Cross and the Department of Veterans Affairs.

     Alaska and Louisiana report that they have more non facility-based programs than facility-
     based training programs. Idaho and the District of Columbia report that they have no State-
     approved facility-based programs. All of the nurse aide training programs in Idaho are
     sponsored by vocational/technical schools. The programs in the District of Columbia are
     conducted by privately owned companies and a local college.

     Laws and regulations in three States make it difficult, if not impossible, for nursing homes to
     sponsor a nurse aide training program. These three States rely primarily on private schools or
     community-based schools and colleges to train nurse aides.



Instructors

     Federal law requires that, “[t]he training of nurse aides be performed by or under the general
     supervision of a registered nurse. This registered nurse must have a minimum of 2 years nursing
     experience, at least 1 year of which must be in the provision of long-term care facility services.
     Instructors must have completed a course in teaching adults or have experience in teaching
     adults or supervising nurse aides.”1

     Federal law permits other health personnel (e.g., pharmacists, therapists) with at least one year
     of experience in their field to supplement the instructor. From our in-person interviews, we
     learned that nurse aide students may often have more than one instructor. We spoke with
     licensed practical nurses and other nursing home personnel (e.g., dieticians) involved in nurse
     aide training. We were told that equipment manufacturers, pharmacists, and other health
     specialists also routinely participate in nurse aide training. During one of our visits we had the
     opportunity to observe a class taught by a physical therapist.

     Eighteen States report that they do not require that nurse aide instructors in their State complete
     a course in teaching adults. These States waive this requirement when the instructor can
     establish that they have current adult teaching experience or current valid State-issued teaching
     credentials in adult education. The remaining 29 States require that nurse aide instructors take
     an adult education course. One State requires that all nurse


     1
         42 CFR §§483.152(a)(5)(i) and 483.152(a)(5)(ii).


                                                            8
     aide training instructors take (and show proof of successful completion) a train-the-trainer or
     adult education course every 2 years.

     Most States review the primary or supervising instructor’s credentials when an application is
     made for initial State approval of a nurse aide training program. States report that these
     credentials are reviewed each time the State renews a nurse aide training program to ensure
     they have not changed from the previous period. While it is clear that the primary or
     supervising instructor’s credentials are verified to ensure that they meet Federal requirements
     for nurse aide instructors, we did not determine whether States require supplemental personnel
     to have adult education experience.

     Five States report that they go beyond a paper review to ensure compliance and make some
     effort to evaluate instructor effectiveness or assess the quality of their State-approved nurse
     aide training programs. One State reported that they use student evaluations of the instructor
     when deciding whether they will renew a sponsor’s program. Three States report that they
     conduct random visits to observe how classes are conducted. One State reported that they
     look at how well students perform on the State written and competency exams when deciding
     whether an instructor should be permitted to continue teaching a nurse aide training class.



Exams and Certification

     In addition to successfully completing a State-approved nurse aide training course, nurse aides
     must successfully pass a State’s written and competency examinations. Only when a nurse aide
     has completed training and passed the competency exam are they considered “certified nurse
     assistants.” Federal law permits, and States use, both written and oral nurse aide exams.

     All of our State respondents indicated that they offer the State nurse aide exam at multiple
     locations throughout their State. Students have the option of taking the exam at the site nearest
     to them or traveling to another county or location if they do not want to wait until the examiner
     visits the site nearest to them. Thirty-two States hire private subcontractors to administer their
     State nurse aide exams. Seventeen States use their own staff or work with other State entities
     to administer the State exams. In most States, the class instructor is prohibited from
     participating in the State examination of their students.

     Exams are usually scheduled whenever there are a sufficient number of students in an area to be
     tested. Passing scores and the content of the State written and skill competency exams varies
     from State to State. Passing exam scores on the written exams range from 70 percent to 80
     percent. Acceptable scores on the clinical skills portion of State exams range from 70 percent
     to 100 percent. Several States only report whether a student has passed or failed their State
     nurse aide written or clinical exam.


                                                 9

     Most States charge students a fee to take their State nurse aide exams. Eighteen States charge
     a single fee for both the written and clinical exam, and 26 States charge a separate fee for each
     section of the exam. State nurse aide exam fees range from a low of $10 to a high of $200.
     Most States require students who fail either the written or clinical portion of their State exam to
     pay additional fees each time they retake the exam.

     Nursing homes are required to pay the State exam fees for students who complete their facility-
     based training programs. Students who complete non facility-based programs and take a job
     as a nurse assistant may have part, or all, of their training expenses and exam fees reimbursed
     by the State. The OBRA 87 requires the States to “. . . provide for the reimbursement of costs
     incurred in completing the [nurse aide] program on a pro rata basis during the period in which
     the individual is employed as a nurse aide.”



Nurse Aide Registries

     Federal law requires that each State establish and maintain a registry of nurse aides who have
     successfully passed the State’s competency exams. At a minimum, the State nurse aide registry
     must contain information about each individual who has successfully completed a nurse aide
     training and competency program, or is found by the State to be competent. The registry must
     contain:

             <        the name of the individual;

             <        identifying information;

             <        date the individual became eligible for placement in the registry; and, 

             <        information on any finding by the State of abuse, neglect or theft.


     Entries for individuals who have performed no nursing or nursing-related services for 24
     consecutive months are to be removed from the registry. However, information about
     individuals with documented findings of abuse, neglect, or theft cannot be removed from the
     registry.

     Most States report that they periodically verify that the nurse aides listed in their registry are still
     active in nursing. Most verify nursing activity by requiring nurse aides to attest or provide
     information (e.g., W-2 form, letter from employer, pay stub) showing that they have worked at
     least 8 hours in nursing care during the past 24 months. Several States require that nursing
     homes and other nurse aide employers periodically report information about nurse aide
     employment to the State. Some States rely on nursing homes to verify that the nurse aide they
     hire has been active in providing nursing care.




                                                   10

     In practice, most States do not remove names from their registry. They simply place individuals
     in an inactive file if they do not receive information showing that a nurse aide has been active in
     nursing or nursing-related services in the prior 24 months. As a result, information provided by
     the States reveals that nurse aide registries contain information on more than 2.8 million
     individuals. We did not receive information from four States on the number of nurse aides in
     their registry. Twenty-one States that provided information about the number of nurse aides in
     their registry did not provide information on the number of active nurse aides in their State.
     Based on information provided by the remaining 30 States, we estimate that approximately 1.4
     million of the nurse aides listed in State registries are active in nursing or nursing related
     services. The General Accounting Office’s report entitled, Nursing Workforce, Recruitment
     and Retention of Nurses and Nurse Aides Is a Growing Concern (GAO-01-750T)
     indicates that, in 1999, more than half (695,570) of the active nurse aides worked in a nursing
     home. The remaining nurse aides worked in home health care and in hospitals. Data on the
     number of nurse aides providing services in other settings (e.g., personal care givers) is not
     known.



In-Service Training

     Requirements for initial nurse aide training are found in Subpart D of 42 CFR §§483.150
     through 483.158 dealing with nurse aide training and competency evaluation programs.
     Federal requirements for on-going nurse aide training, commonly referred to as in-service, are
     found in Subpart B of 42 CFR §483.75 --Requirements for Long Term Care Facilities.
     Federal law requires that each nurse aide have no less than 12 hours of in-service training per
     year.2

     The Federal regulations pertaining to in-service require that all nursing homes complete a
     performance review of every nurse aide at least once every 12 months. Nursing homes must
     also provide regular in-service training designed to address problems documented in nurse aide
     performance reviews. In-service training should address specific nurse aide skill deficiencies or
     issues related to specific resident care needs.

     While Federal regulations require 12 hours of in-service training annually, 4 States require more
     than 12 hours of in-service training. Sixteen State NATCEP respondents reported that their
     State required that specific topics be covered during in-service training. Topics mentioned as
     being required include fire prevention and response, emergency procedures and preparedness,
     resident’s rights, infection control and prevention, proper use of restraints, confidentiality of
     resident information and care of the cognitively-impaired. Training on these topics is required
     as a Medicare/Medicaid Condition of Participation for nursing homes.



     2
             42 CFR §483.75(e)


                                                 11

The remaining 32 States did not report having specific topics for in-service training.3 Seven
State respondents specifically mentioned that in-service topics should be based on nurse aide
weaknesses identified by the nursing home. One of these States reported that in-service
training, “. . . should be based on the needs of the nurse aide, but most nursing homes do it
based on the needs of their resident population.”




3
    One State did not respond to our in-service questions. Two States did not return our survey.


                                                      12
STATE NURSE AIDE TRAINING PROGRAMS

  Table Comparisons of Key Elements of State Training Programs




                                  13

  STATE         RESPONSIBLE        MINIMUM      MINIMUM         MORE THAN 1     FACILITY       TRAINING   FACILITY     NON       CURRICULA
                DEPARTMENT         TRAINING     CLINICAL        APPROVED        BASED          PROGRA     BASED        FACILIT   CONTENT
                                   HOURS        HOURS           CURRICULUM      APPLICATION    M REVIEW   SITES        Y SITES
                                   REQUIRED                                     FEE

  AK            COMMERCE &         140          80              YES *           YES            2 YEAR     20           28        A,B,C,D,E,F
                ECONOMIC
                DEV

  AL            DOH                75           16              YES *           NO             2 YEAR     142          98        A,B,C,D,E,F

  AR            DOH                75           16              NO              NO             2 YEAR     56           78        A,B,C,D,E,F

  AZ            BD OF              120          16              YES / ~160      NO             2 YEAR     70           90        A,B,C,D,E,F
                NURSING

  CA            DOH                150          100             YES **          YES            2 YEAR     300          486       A,B,D,F

  CO            BD OF              75           16              YES *           NO             2 YEAR     102          59        A,B,C,D,E,F
                NURSING

  CT            DOH                100          50              YES **          NO             2 YEAR     92           74        A,B,C,D,E,F

  DC            CONTRACT           120          not specified   NO              NO             YEARLY     0            5         A,B,C,D,E,F
                University of DC

  DE            DOH                75           37.5            NO              NO             2 YEAR     17           11        A,B,C,D,E,F

  FL            DOEduc             120          40              YES**           YES            YEARLY     see note 1   586       A,B,C,D,E,F


KEY
          *         Can be individualized within OBRA requirements
          **        Has a core set of requirements that must be included in each curriculum.
          ***       State has an approved model used by most programs

CURRICULA CONTENT
       A = Basic nursing skills
       B = Personal care skills
       C = Mental health and social service skills
       D = Caring for cognitively impaired residents




                                                                                 14
 STATE        TRAIN THE     INSTRUCTOR        STUDENTS           EXAM   COMPENSATION     IN-       AIDES ON   NUMBER OF
              TRAINER       RECRUITMEN        TAKING             FEES   FOR NON-         SERVICE   STATE      ACTIVE
              REQUIRED      T PROBLEMS        EXAM 01/01/01-            FACILITY BASED   MINIMUM   REGISTRY   NURSE
                                              03/31/01/ NUMBER          TRAINING         HOURS                AIDES
                                              WHO PASSED

 AK           YES           NO                90 / 69            40     NO               24        7381       2469

 AL           YES           NO                1872 / 1425        80     YES              12        68329      DK

 AR           YES           DK                DK / DK            70     UNCERTAIN        12        19414      19000

 AZ           NO            YES               902 / DK           90     DK               12        25000      25000

 CA           NO            YES               DK / DK            85     YES              24        105194     DK

 CO           YES           NO                DK / 530           105    YES              12        19796      DK

 CT           NO            NO                1000 / 909         92     NO               12        61732      31486

 DC           NO            NO                DK / DK            63     DK               12        DK         DK

 DE           YES           YES               171 / 116          85     NO               12        11053      5872

 FL           NO            YES               NR                 NR     YES              18        270000     DK



KEY

         DK indicates that the respondent did not know.




                                                                              15

  STATE       RESPONSIBLE      MINIMUM       MINIMUM      MORE THAN 1      FACILITY      TRAININ   FACILIT   NON       CURRICULA
              DEPARTMENT       TRAINING      CLINICAL     APPROVED         BASED         G         Y BASED   FACILIT   CONTENT
                               HOURS         HOURS        CURRICULUM       APPLICATION   PROGRA    SITES     Y SITES
                               REQUIRED                                    FEE           M
                                                                                         REVIEW

  GA         GA Medical        85            16           NO               NO            YEARLY    93        251       A,B,C,D,E,F
             Foundation

  HI

  IA         INSPECTIONS &     75            30           YES / 4          YES           AS TIME   36        30        A,B,C,D,E,F
             APPEALS                                                                     PERMITS

  ID         BD OF             120           40           NO               NO            YEARLY    0         45        A,B,C,D,F
             NURSING

  IL         DOH               120           40           NO               NO            2 YEAR    78        161       A,B,C,D,E,F

  IN         DOH               105           75           NO               NO            YEARLY    216       67        A,B,C,D,E,F

  KS         DOH               90            45           NO               NO            2 YEAR    129       43        A,B,C,D,E,F

  KY         DOH               75            16           NO               NO            2 YEAR    152       105       A,B,C,D,E,F

  LA         DOH               80            40           YES *            NO            YEARLY    86        118       A,B,C,D,E,F

  MA



KEY
       *       Can be individualized within OBRA requirements
       **      Has a core set of requirements that must be included in each curriculum
       ***     State has an approved model used by most programs
CURRICULA CONTENT
       A = Basic nursing skills
       B = Personal care skills
       C = Mental health and social service skills

       D = Caring for cognitively-impaired residents

       E = Basic restorative skills

       F = Residents’ rights





                                                                                 16

 STATE        TRAIN THE      INSTRUCTOR       STUDENTS              EXAM     COMPENSATION     IN-       AIDES ON   NUMBER OF
              TRAINER        RECRUITMEN       TAKING                FEES     FOR NON-         SERVICE   STATE      ACTIVE
              REQUIRED       T PROBLEMS       EXAM 01/01/01-                 FACILITY BASED   MINIMUM   REGISTRY   NURSE
                                              03/31/01/ NUMBER               TRAINING         HOURS                AIDES
                                              WHO PASSED

 GA           YES            NO               DK / DK               DK       YES              12        DK         DK

 HI

 IA           NO             NO               552 / 476             60       YES              12        30605      DK

 ID           YES            NO               DK / DK               37       YES              12        29868      11263

 IL           YES            NO               DK / DK               50       YES              12        DK         DK

 IN           YES            NO               5000 / DK             60       YES              12        104297     DK

 KS           NO             YES              945 / 891             10       NO               12        29850      29850

 KY           YES            NO               DK/ DK                75       YES              12        73157      28281

 LA           YES            NO               DK / 1300             110      NO               12        113827     36500

 MA



KEY
         DK indicates that the respondent did not know.

         NR indicates that the respondent did not respond to the question.




                                                                                   17

  STATE       RESPONSIBLE      MINIMUM       MINIMUM         MORE THAN 1   FACILITY      TRAINING   FACILIT   NON       CURRICULA
              DEPARTMENT       TRAINING      CLINICAL        APPROVED      BASED         PROGRA     Y BASED   FACILIT   CONTENT
                               HOURS         HOURS           CURRICULUM    APPLICATIO    M REVIEW   SITES     Y SITES
                               REQUIRED                                    N FEE

  MD         BD OF             100           40              YES / 4       NO            2 YEAR     894       107       A,B,C,D,E,F
             NURSING

  ME         DOEduc            150           50              NO            NO            2 YEAR     91        33        A,B,C,D,E,F

  MI         DOH               75            16              YES **        NO            2 YEAR     165       135       A,B,C,D,E,F

  MN         DOH               75            37.5            YES / 2       NO            2 YEAR     100       46        A,B,C,D,E,F

  MO         AGING             175           100             NO            NO            2 YEAR     397       95        A,B,C,D,E,F

  MS         DOH               75            16              NO            NO            2 YEAR     64        89        A,B,C,D,E,F

  MT         DOH               75            25-30           NO            NO            2 YEAR     59        16        A,B,C,D,E,F

  NC         DOH               75            16              YES ***       NO            PRIORITY   103       547       A,B,C,D,E,F
                                                                                         BASIS

  ND         DOH               75            16              NO            NO            2 YEAR     44        14        A,B,C,D,E,F

  NE         DOH               76            not specified   YES ***       NO            2 YEAR     79        18        A,B,C,D,E,F


KEY
       *       Can be individualized within OBRA requirements
       **      Has a core set of requirements that must be included in each curriculum
       ***     State has an approved model used by most programs
CURRICULA CONTENT
       A = Basic nursing skills
       B = Personal care skills
       C = Mental health and social service skills

       D = Caring for cognitively-impaired residents

       E = Basic restorative skills

       F = Residents’ rights





                                                                                 18

  STATE     TRAINING       INSTRUCTOR       STUDENTS              EXAM      COMPENSATION     IN-       AIDES ON   NUMBER OF
            PROGRAM        RECRUITMEN       TAKING                FEES      FOR NON-         SERVICE   STATE      ACTIVE
            REVIEW         T PROBLEMS       EXAM / NUMBER                   FACILITY BASED   MINIMUM   REGISTRY   NURSE
                                            WHO PASSED                      TRAINING         HOURS                AIDES
                                            1 ST QUARTER ‘01

  MD        YES            YES              NR / 419              86        DK               12        15164      15164

  ME        YES            NO               300 / DK              20        YES              12        35789      12674

  MI        YES            YES              2314 / 1805           176.50    YES              12        36552      DK

  MN        YES            YES              2176 / 1693           110-150   YES              12        117605     45253

  MO        YES            NO               1470 / 1393           25-200    YES              12        99035      58211

  MS        YES            NO               DK / DK               88        NO               12        13204      DK

  MT        NO             NO               483 / 458             96        YES              12        8801       8801

  NC        NO             YES              DK / 3466             VARIES    YES              12        213445     87906

  ND        NO             NO               DK / 342              110       YES              12        22366      9518

  NE        NO             NO               DK /DK                DK        YES              12        50149      DK



KEY

       DK indicates that the respondent did not know.

       NR indicates that the respondent did not respond to the question.




                                                                                  19

   STATE      RESPONSIBLE      MINIMUM       MINIMUM         MORE THAN 1   FACILITY      TRAINING   FACILIT   NON       CURRICULA
              DEPARTMENT       TRAINING      CLINICAL        APPROVED      BASED         PROGRA     Y BASED   FACILIT   CONTENT
                               HOURS         HOURS           CURRICULUM    APPLICATIO    M REVIEW   SITES     Y SITES
                               REQUIRED                                    N FEE

   NH        BD OF             100           60              YES / 53      NO            YEARLY     39        14        A,B,C,D,E,F
             NURSING

   NJ        DOH               90            40              NO            YES           2 YEAR     383       30        A,B,C,D,E,F

   NM        DOH               75            no answer       NO            NO            2 YEAR     83        32        A,B,C,D,E,F

   NV        BD OF             75            not specified   NO            YES           2 YEAR     14        7         A,B,C,D,E,F
             NURSING

   NY        DOH               100           30              NO            NO            2 YEAR     280       300       A,B,C,D,E,F

   OH        DOH               75            16              NO            YES           YEARLY     305       220       A,B,C,D,E,F

   OK        CONTRACTED        75            16              YES / 10      YES           2 YEAR     346       70        A,B,C,D,E,F

   OR        BD OF             150           75              NO            YES           2 YEAR     40        36        A,B,C,D,E,F
             NURSING

   PA        DOEduc            75            37.5            YES *         NO            2 YEAR     512       356       A,B,C,D,E,F

   RI        DOH               100           20              YES **        YES           2 YEAR     68        13        A,B,C,D,E,F



KEY
       *       Can be individualized within OBRA requirements
       **      Has a core set of requirements that must be included in each curriculum
       ***     State has an approved model used by most programs
CURRICULA CONTENT
       A = Basic nursing skills
       B = Personal care skills
       C = Mental health and social service skills

       D = Caring for cognitively-impaired residents

       E = Basic restorative skills

       F = Residents’ rights





                                                                                 20

  STATE     TRAIN THE      INSTRUCTOR       STUDENTS              EXAM     COMPENSATION     IN-          AIDES ON   NUMBER OF
            TRAINER        RECRUITMEN       TAKING                FEES     FOR NON-         SERVICE      STATE      ACTIVE
            REQUIRED       T PROBLEMS       EXAM 01/01/01-                 FACILITY BASED   MINIMUM      REGISTRY   NURSE
                                            03/31/01/ NUMBER               TRAINING         HOURS                   AIDES
                                            WHO PASSED

  NH        YES            NO               200 / 190             75-125   YES              12           10000+/-   10000

  NJ        YES            NO               1100 / 575            80       YES              24/2 YEARS   30000+/­   DK

  NM        YES            NO               683 / NR              100      NO               12           20222      20222

  NV        YES            YES              DK / DK               90       YES              24/2 YEARS   14413      4632

  NY        YES            NO               DK / DK               115      YES              12           249369     99726

  OH        YES            NO               DK / DK               102      YES              12           164691     71443

  OK        NO             NO               DK / 2100             DK       YES              24           45000      DK

  OR        YES            YES              977 / 634             96       YES              12           54676      15492

  PA        YES            NO               2870 / 2190           93       YES              12           152351     99848

  RI        NO             NO               323 / 279             45       YES              12           28400      14000+/­



KEY

       DK indicates that the respondent did not know.

       NR indicates that the respondent did not respond to the question.




                                                                                 21

   STATE     RESPONSIBLE       MINIMUM      MINIMUM       MORE THAN 1      FACILITY      TRAINING    FACILIT   NON       CURRICULA
             DEPARTMENT        TRAINING     CLINICAL      APPROVED         BASED         PROGRA      Y BASED   FACILIT   CONTENT
                               HOURS        HOURS         CURRICULUM       APPLICATIO    M REVIEW    SITES     Y SITES
                               REQUIRED                                    N FEE

   SC        DOH               80           40            NO               NO            2 YEAR      18        55        A,B,C,D,E,F

   SD        DOH               75           16            YES / 2          NO            2 YEAR      100       3         A,B,C,D,E,F

   TN        DOH               75           35            YES ***          NO            2 YEAR      184       85        A,B,C,D,E,F

   TX        DOH               75           24            NO               NO            2 YEAR      540       323       A,B,C,D,E,F

   UT        STATE AGENCY      80           16            NO               YES           2 YEAR      37        43        A,B,C,D,E,F

   VA        BD OF             120          40            YES / 242        NO            YEARLY      91        151       A,B,C,D,E,F
             NURSING

   VT        BD OF             75           16            YES **           NO            2 YEAR      32        13        A,B,C,D,E,F
             NURSING

   WA        DOH               85           50            NO               NO            3-4 YEARS   110       110       A,B,C,D,E,F

   WI        DOH               75           16            YES / 60         NO            2 YEAR      84        54        A,B,C,D,E,F

   WV        DOH               120          55            NO               NO            2 YEAR      74        67        A,B,C,D,E,F

   WY        BD OF             75           48            YES / 4          NO            2 YEAR      41        14        A,B,C,D,E,F
             NURSING



KEY
       *       Can be individualized within OBRA requirements
       **      Has a core set of requirements that must be included in each curriculum
       ***     State has an approved model used by most programs
CURRICULA CONTENT
       A = Basic nursing skills

       B = Personal care skills

       C = Mental health and social service skills

       D = Caring for cognitively-impaired residents

       E = Basic restorative skills

       F = Residents’ rights





                                                                                 22

  STATE     TRAIN THE      INSTRUCTOR       STUDENTS              EXAM     COMPENSATION     IN-       AIDES ON   NUMBER OF
            TRAINER        RECRUITMEN       TAKING                FEES     FOR NON-         SERVICE   STATE      ACTIVE
            REQUIRED       T PROBLEMS       EXAM 01/01/01-                 FACILITY BASED   MINIMUM   REGISTRY   NURSE
                                            03/31/01/ NUMBER               TRAINING         HOURS                AIDES
                                            WHO PASSED

  SC        NO             YES              966 / 604             86       NO               12        18334      DK

  SD        NO             NO               DK / 145              145      YES              12        19929      DK

  TN        NO             NO               1933 / 1305           75       YES              12        30269      DK

  TX        YES            YES              5427 / 4056           69.75    YES              12        91873      DK

  UT        YES            NO               2156 / 1590           60       YES              12        37000      1200

  VA        NO             NO               NR / NR               80       NO               12        32742      DK

  VT        NO             NO               142 / 142             105      DK               12        11649      3996

  WA        YES            YES              NR / 1100             85       YES              12        77348      36323

  WI        YES            YES              3046 / 3046           60-180   YES              12        145161     44383

  WV        YES            NO               410 / 281             100      YES              12        24272      13807

  WY        YES            YES              269/209               35       YES              12        4191       DK




KEY

       DK indicates that the respondent did not know.

       NR indicates that the respondent did not respond to the question.




                                                                                 23

                 DIRECTORY

STATE NURSE AIDE TRAINING PROGRAM CONTACTS





                    24

AK                                                AL
Sandra Woods
                                     James K. Reid

Program Manager, Nurse Aide Registry
             Director, Nurse Aide Program

AK Department of Community and Economic
          AL Department of Public Health

Development
                                      Division of Health Care Facilities

Division of Occupational Licensing
               201 Monroe Street- RSA Tower 

3601 C Street, Suite 722
                         Montgomery, AL 36130

Anchorage, AK 99503
                              334-206-5169

907-269-8169


AR                                                AZ
Thomas Wingard
                                   Nathalie Rennell

Program Administrator
                            CNA Program Manager

AR Department of Human Services
                  AZ State Board of Nursing

Office of Long-Term Care
                         1651 E. Morten Avenue, Suite 210

Division of Medical Services
                     Phoenix, AZ 85020

P.O. Box 8059
                                    602-331-8111

Little Rock, AR 72203

501-682-6117


CA                                                   CO
Lynn Heisler 
                                    Jan Zubieni

Health Facilities Specialist
                     Education Consultant

CA Department of Health Services
                 CO Board of Nursing

Professional Certification Branch
                1560 Broadway, Suite 880

1800 Third Street, #210 
                         Denver, CO 80202

P.O. Box 942732 
                                 303-894-2819

Sacramento, CA 94234

916-324-8820


CT                                                DC
Wendy Furniss
                                    Carol Daniels

Supervising Nurse Consultant
                     Director, Health Certification & Licensure

CT Department of Public Health
                   Programs

Bureau of Regulatory Services
                    University of District of Columbia 

Division of Health Systems Regulation
            Division of Continuing Education

410 Capital Avenue
                               4340 Connecticut Avenue NW, #B113

P. O. Box 340308
                                 Washington, DC 20008

Hartford, CT 06134
                               202-274-6950

860-509-7400


DE                                                FL
Elise P. MacEwen
                                 Judy B. Conlin

Nurse Aide Registry Coordinator
                  State Supervisor, Health Science Education

DE Department of Health and Social Services
      Programs

Division of Long-Term Care Residents
             FL Department of Education

Protection
                                       Division of Workforce Development

3 Mill Road, Suite 308
                           325 West Gaines Street, Room 701

Wilmington, DE 19806
                             Tallahassee, FL 32399

302-577-6666
                                     850-487-4439




                                               25

GA                                                 HI
Kathryn Shoemaker
                                 Lynette Honbo

RN-Education Specialist
                           Medical Standards Branch

GA Medical Care Foundation
                        601 Kamokila Boulevard

57 Executive Park, South Suite 200
                Kapolei, HI 96707

Atlanta, GA 30329
                                 808-692-8106 

404-982-7846


IA                                                 ID
Karen Zaabel
                                      Vicky Goettsche
Health Facilities Training Officer
                Associate Director
IA Department of Inspections and Appeals
          ID Board of Nursing
321 East 12th Street
                              280 N. 8 th, Suite 210
Des Moines, IA 50319
                              P.O. Box 83720
515-242-5991
                                      Boise, ID 83720
                                                   208-334-3110

IL                                                 IN
Anne Conwill
                                      David Miller

Staff Development Specialist
                      RN Training Officer

IL Department of Public Health
                    IN Dept of Health

Office of Health Care Regulation 
                 Division of Long Term Care

525 W. Jefferson
                                  2 N. Meridian Street

Springfield, IL 62761
                             Indianapolis, IN 46204

217-524-0127
                                      317-233-7615


KS                                                 KY
Lesa Roberts
                                      Vicki R. Barber

Director
                                          R.N./N.C.I.

Health Occupations Credentialing
                  KY Cabinet for Health Services

KS Department of Health and Environment
           Department for Medicaid Services

1000 SW Jackson, Suite 330
                        Long Term Care Division

Topeka, KS 66612
                                  275 East Main Street, 6WB 

785-296-1281
                                      Frankfort, KY 40621

                                                   502-564-5707


LA                                                 MA
Lorena Landry
                                     Peter Bilodeau

NATCEP Director
                                   Nurses Aide Registry

LA Department of Health & Hospital Standards
      MA Division of Healthcare Quality

500 Laurel Street, 1st floor
                      10 West Street

Baton Rouge, LA 70801
                             Boston, MA 02111

225-342-5778
                                      617-753-8000


MD                                                 ME
Ethel Stanley
                                     Roanne Seeley

Program Administrator
                             Education Specialist

MD Board of Nursing
                               ME Department of Education

4140 Patterson Avenue
                             23 State House Station

Baltimore, MD 21215
                               Augusta, ME 04333

410-585-1990 
                                     207-624-6742



                                                26

MI                                                  MN
Rae Ramsdell
                                       Dena Dunkel

Manager
                                            Nursing Assistant Registry Coordinator

MI Department of Consumer & Industry Services
      MN Department of Health

Bureau of Health Services
                          Facility and Provider Division

611 W. Ottawa
                                      Licensing and Certification Program

P.O. Box 30670
                                     85 East Seventh Place, Suite 300

Lansing, MI 48909
                                  P. O. Box 64900

517-241-0054
                                       St. Paul, MN 55164

                                                    651-215-8813


MO                                                  MS
Lois Bonnot 
                                       Jannifer G. Anderson

Facility Advisory Nurse III
                        Nurse III

MO Division of Aging
                               MS Department of Health

615 Howerton Court
                                 Licensure and Certification

Jefferson City, MO 65102 
                          570 E. Woodrow Wilson

573-526-8513
                                       Jackson, MS 39215

                                                    601-576-7300


MT                                                  NC
Roseline Efta 
                                     Hazel B. Slocumb

Health Care Facility Surveyor
                      Assistant Chief, Nurse Aide Training & Registry

MT Department of Public Health and Human
           Administration

Services
                                           NC Department of Health and Human Services

Certification Bureau
                               Division of Facility Services

2501 Colonial Drive, 2nd Floor
                     Health Care Personnel Registry Section

Helena, MT 59620
                                   701 Barbour Drive

406-444-1599
                                       Raleigh, NC 27603 

                                                    919-715-1657


ND                                                  NE
Carole Klebe
                                       Nancy Holmgren

Manager
                                            Nurse Aide Program Manager

ND Department of Health
                            NE Department of Health and Human Services

Division of Health Facilities
                      Regulation and Licensure, Credentialing Division 

600 East Boulevard Avenue
                          301 Centennial Mall SO

Bismarck, ND 58505
                                 Lincoln, NE 68509

701-328-2352
                                       402-471-4969 


NH                                                  NJ
Margaret Walker
                                    Henry T. Kozek

Program Specialist IV
                              Program Manager

NH Board of Nursing
                                NJ Department of Health and Senior Services

78 Regional Drive, Bldg B
                          LTC Systems, Certification Program

P. O. Box 3898
                                     120 S. Stockton Street

Concord, NH 03302
                                  P.O. Box 367

603-271-6282 
                                      Trenton, NJ 08625

                                                    609-633-9706





                                                 27

NM                                                   NV
Alberta Y. Barnes
                                   Donald S. Rennie

Coordinator of Nurse Aide Registry
                  Associate Executive Director for Licensure &

NM Department of Health
                             Certification

Division of Health Improvement
                      NV State Board of Nursing

Health Facility License & Certification Bureau
      P.O. Box 46886

2040 S. Pacheco Street, 2 nd floor, Room 413
        Las Vegas, NV 89114 

Santa Fe, NM 87505 
                                 702-486-5800

505-476-9038


NY                                                   OH
Diane Lenzner Cohen
                                 Joy Thompson

Director
                                            OH Department of Health

NY Department of Health
                             Division of Quality Assurance

Bureau of Professional Credentialing
                Bureau of Long Term Care Quality

Office of Continuing Care
                           246 North High Street

61 Delaware Avenue
                                  Columbus, OH 43266

Delmar, NY 12054
                                    614-752-8285

518-478-1060


OK                                                   OR
Lisa McAlister
                                      Debra K. Buck

Director of Nurse Aide Registry
                     CNA Program Consultant

OK Department of Health
                             OR Board of Nursing

1000 NE 10th Street
                                 800 NE Oregon Street, Suite 465

Oklahoma City, OK 73117
                             Portland, OR 97232

405-271-4086
                                        503-731-4745


PA                                                   RI
Lyn Forlizzi
                                        Paula Morrissey

State Coordinator of Nurse Aide Training
            Administrative Officer 

PA Department of Education
                          RI Department of Health

333 Market Street--6th Floor
                        Health Professions

Harrisburg, PA 17126
                                3 Capitol Hill-Room 105

717-783-6974
                                        Providence, RI 02908

                                                     401-222-6305


SC                                                   SD
Patty Lawrence
                                      Joan Bachman

Program Coordinator II
                              Administrator

SC Department of Health and Human Services
          SD Department of Health

Division of Community and Facility Services
         Office of Health Facilities Licensure and

1801 Main Street
                                    Certification

Columbia, SC 29201
                                  615 E. 4th Street

803-898-2590
                                        Pierre, SD 57501

                                                     605-773-3356





                                                  28

TN                                                       TX
Jacqueline Johnson
                                      Mary E. Calvin

Program Manager
                                         Manager, Nurse Aide Registry and Training

TN Department of Health
                                 TX Department of Human Services

Health Care Facilities
                                  Long Term Care- Regulatory 

425 5th Avenue North, 1 st floor Cordell Hall Bldg
      501 W. 51st Street, PO Box 149030

Nashville, TN 37247
                                     Austin, TX 78714

615-532-7841
                                            512-231-5800


UT                                                       VA
Susan Lewsen
                                           Paula B. Saxby

Director
                                               Nurse Aide Education Program Coordinator

Utah Health Technology Certification Center
            VA Board of Nursing

550 E. 300 S.
                                          Department of Health Professions

Kaysville, UT 84037
                                    6606 West Broad Street, 4 th floor 

801-547-9947
                                           Richmond, VA 23233

                                                        804-662-7310


VT                                                       WA
Janice Hatch
                                            Lew Maudsley 

Nurse Assistant Program Coordinator
                     Nursing Assistant Program Manager

VT State Board of Nursing
                               WA Department of Social and Health Services

81 River Street
                                         Aging and Adult Services Administration

Montpelier, VT 05609
                                    Residential Care Services Division

802-828-2819
                                            640 Woodland Sq Lp SE

                                                         P.O. Box 45600

                                                         Olympia, WA 98504

                                                         360-725-2596


WI                                                       WV
Sue Larsen
                                              Kay S. McVey

Supervisor, Caregiver Regulation and Investigation
      Program Manager

Section
                                                 WV DHHR-OHFLAC

WI Department of Health and Family Services
             Nurse Aide Training and Competency Evaluation

Division of Supportive Living
                           Program

Bureau of Quality Assurance
                             350 Capitol Street, Room 206

1 West Wilson
                                           Charleston, WV 25301

P.O. Box 2969
                                           304-558-0688

Madison, WI 53701

608-266-1440




WY
Mary K. Schaper

Assistant Executive Director

Nursing Practices Consultant

WY State Board of Nursing

2020 Carey Ave, Suite 110

Cheyenne, WY 82009

307-777-7601




                                                      29

                      ACKNOWLEDGMENTS


This report was prepared under the direction of William C. Moran, Regional Inspector General for
Evaluation and Inspections in Chicago, Brian T. Pattison, Regional Inspector General for Evaluation
and Inspections in Kansas City, and Natalie Coen, Deputy Regional Inspector General in Chicago.
Other principal Office of Evaluation and Inspections staff who contributed include:

John Traczyk, Project Leader                   Sandy Khoury, Program Specialist
Dennis Tharp, Lead Analyst                            Bambi Straw, Program Specialist
Tricia Fields, Program Analyst                        Barbara Tedesco, Statistician
Erin Guay, Program Analyst




                                                 30

